21-328

In the
Supreme Court of the United States

 

RoBYN MorGaN, on Behalf of Herself and All
Similarly Situated Individuals
Petitioner,
v.

SUNDANCE, INC.,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the
Eighth Circuit
—{{—_—_{_{__{_——————
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the foregoing Brief
of Law Professors as Amici Curiae in Support of Granting the Petition for Certiorari
complies with the typeface requirements of Supreme Court Rule 33.1(b), being
prepared in Century Schoolbook font, 12 point for the text and 10 point for the
footnotes. I further certify that this brief and accompanying Motion for Leave to File
a Brief Amici Curiae contains 3,682 words, excluding the parts of the document that
are exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 29, 2021.

Richard Frankel
Counsel of Record
